                             CLOSEOUT FOR M95110042

           This case -came- to OIG on November 11, 1995, when we received a copy of a
                                                                       -.
  letter from ,-                esq., an attorney for-eht



 -
-(the                 complainant) to Dr.                    Vice-President for ~esearch
  at t h e ( t h e university). The complainant alleged that ~ r . m
 ( t h e subject) plagiarized the concept for a new kind of equipment and
  incorporated the concept in a proposal to another government agency. The complainant
  alleged that the concept was developed by a scientist in the complainant's company.
  There is no evidence or allegation that a proposal containing stolen ideas was submitted
  to NSF. The letter claims that 'the laboratory in which these devices are fabricated is
  being equipped with funds from the National Science Foundation.  "




       OIG determined that the subject's odly NSF award in the past fifteen years was
an equipment grant to a different institution. The subject is Listed as a co-PI on this
award. In the final report for the award, there is no mention of the subject or of any
work similar to that described in the allegation.

         A researcher's use of equipment originally purchased with NSF funds is not, by
itself and in the absence of a stronger relationship between the NSF equipment proposal
or award and the alleged misconduct, sufficient to give OIG jurisdiction over an
incident of alleged misconduct. In this case, we determined that OIG lacked
jurisdiction over the alleged misconduct because the work in question was neither
proposed to NSF nor carried out under an NSF award. This inquiry is closed and no
further action will be taken on this case.




                                   page 1 of 1
